                                                                             Report No. DODIG-2013-082




              I nspec tor Ge ne ral
                                                       Department of Defense

              M AY 2 9 , 2 0 1 3




                     Hotline Allegation Regarding the
                     Failure to Take Action on Material
                     Management and Accounting
                     System Audit Findings




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                   Results in Brief
                                   Hotline Allegation Regarding the Failure to Take Action
                                   on Material Management and Accounting System Audit
                                   Findings


May 29, 2013

Objective                                             Recommendations
We conducted this review to determine the va-         We recommend that the Commander, Naval Sea Systems Com-
lidity of a DoD Hotline complaint alleging that       mand, take appropriate administrative action, including person-
the contracting officer at a Supervisor of Ship-      al accountability, for the failure of SUPSHIP to take action on the
building, Conversion and Repair (SUPSHIP) fa-         reported MMAS deficiencies. In consultation with DCAA, we also
cility failed to take action on audit findings re-    recommend that SUPSHIP promptly evaluate the adequacy of the
ported by the Defense Contract Audit Agency           contractor’s plan for correcting the deficiencies.
(DCAA) involving a DoD contractor’s Material
Management and Accounting System (MMAS).
The complaint also alleged that DCAA manage-
                                                      Comments and Response
ment at a field audit office did not take appropri-   Management agreed with the recommendations and took several
ate action to protect the Government’s interests.     actions in response to a draft of this report. SUPSHIP implement-
                                                      ed a $5.9 million withholding of payments to protect the Govern-
                                                      ment’s interests until the contractor fully corrects the reported
Findings                                              deficiencies. The withholding is still in place. However, regarding
We substantiated the allegation that the SUP-         the Standard 2 deficiency, SUPSHIP did not require corrective ac-
SHIP contracting officer did not take action on       tion because SUPHIP maintains that the costs of correcting the
significant MMAS deficiencies reported in multi-      deficiency would exceed the related benefits. SUPSHIP failed to
ple DCAA audit reports since 1996. As a result,       provide adequate rationale in support of its actions on the Stan-
the Government likely paid millions of dollars in     dard 2 deficiency. Accordingly, we request additional comments
excess material inventory carrying costs and oth-     for Recommendations 2.a, 2.b, 2.c, 2.d, and 2.e by July 1, 2013.
er charges, which are not recoverable. In 2008,
DCAA estimated that the Government incurred
$27.7 million annually in excess inventory car-
rying costs on one of the deficiencies involving
the failure to appropriately time-phase material
costs, as Standard 2 requires. We did not sub-
stantiate the second allegation that DCAA field
office management failed to take appropriate ac-
tions to protect the Government’s interests.




Visit us on the web at www.dodig.mil

                                                                                                         DODIG-2013-082 │ i
                  Recommendations Table
                                                                         Recommendations                No Additional
                                       Management                        Requiring Comment            Comments Required
                      Commander, Naval Sea Systems Command                                                   1
                      Commanding Officer, Supervisor of Shipbuilding,   2.a, 2.b, 2.c, 2.d, and 2.e
                      Conversion and Repair
                      Please provide comments by July 1, 2013.




ii │ DODIG-2013-082
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               4800 MARK CENTER DRIVE
                            ALEXANDRIA, VIRGINIA 22350-1500




                                                                           May 29, 2013

MEMORANDUM FOR COMMANDER, NAVAL SEA SYSTEMS COMMAND
               DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Hotline Allegation Regarding the Failure to Take Action on Material
         Management and Accounting System Audit Findings
         (Report No. DODIG-2013-082)

We are providing this report for review and comment. We performed this review based
on a Defense Hotline complaint. We substantiated the allegation that the contracting
officer at a Supervisor of Shipbuilding, Conversion and Repair (SUPSHIP) facility failed
to take appropriate action on significant Material Management and Accounting System
deficiencies reported by the Defense Contract Audit Agency, likely resulting in the
Government paying millions of dollars each year in additional material carrying costs.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. We
considered management comments and actions taken in response to a draft of this report.
As a result of management comments, we added Recommendations 2.d and 2.e. We
request that the Commanding Officer, SUPSHIP, provide additional comments on
Recommendations 2.a, 2.b, 2.c, 2.d, and 2.e by July 1, 2013.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to the e-mail address cited in the last paragraph of this
memorandum. Copies of your comments must contain the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/ symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to our staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), carolyn.davis@dodig.mil.




                                Randolph R. Stone, SES
                                Deputy Inspector General
                                Policy and Oversight




                                                                                      DODIG-2013-082 │ iii
Contents


Introduction
Objectives ________________________________________________________________________________________1
Background ______________________________________________________________________________________1

Finding A
The Contracting Officer Failed to Take Action on Reported MMAS Deficiencies __________3
Allegation _______________________________________________________________________________________3
DCAA Audit Reports ____________________________________________________________________________3

Finding B
Alleged DCAA Management Failure to Protect the Government’s Interests _____________ 12
Allegation _____________________________________________________________________________________ 12
DCAA Organization ___________________________________________________________________________ 12

Appendices
Appendix A. Scope and Methodology ______________________________________________________ 16
Appendix B. Comparison of Estimated Impact for Standard 2 Deficiency _______________ 17
Appendix C. Chronology of Events __________________________________________________________ 18
Appendix D. DoD Inspector General Notice of Concern ___________________________________ 19
Appendix E. Naval Sea Systems Command Comments on the Notice of Concern _______ 22
Appendix F. Navy Comments ________________________________________________________________ 24

Acronyms and Abbreviations _____________________________________________ 27




                                                                                                       DODIG-2013-082 │ v
                                                                                               Introduction




Introduction
Objectives
We conducted this review to determine the validity of a DoD Hotline complaint alleging
that:

         a.	 a contracting officer at a Supervisor of Shipbuilding, Conversion and Repair
            facility failed to take any action on material management and accounting
            system deficiencies that Defense Contract Audit Agency had reported; and

         b.	 Defense Contract Audit Agency (DCAA) management involved in reporting
            the Material Management and Accounting System (MMAS) deficiencies did
            not adequately protect the Government’s interests.

See Appendix A for details of our scope and methodology.


Background
Material Management and Accounting System Standards
Defense Federal Acquisition Regulations Supplement (DFARS) clause 252.242-7004,
“Material Management and Accounting System,” requires DoD contractors to maintain an
MMAS that reasonably forecasts material requirements; ensures material costs are based
on valid time-phased requirements; and has a consistent, equitable, and unbiased logic
for costing of material transactions.

The clause lists 10 system criteria (also known as MMAS “standards”) for determining the
acceptability of an MMAS. For example, DFARS clause 252.242-7004(d)(2), also known as
“Standard 2,” states that a DoD contractor’s MMAS must, “Ensure that costs of purchased
and fabricated material charged or allocated to a contract are based on valid time-phased
requirements as impacted by minimum/economic order quantity restrictions.” The
clause defines “time-phased requirements” as material which is charged and billed to
contracts in a manner consistent with the need to fulfill the production plan. If a DoD
contractor routinely receives material far in advance of its production plan or actual need,
the Government could be paying for significant excess inventory carrying costs and other
related unnecessary charges.

Contracting officers must withhold a percentage of payments on contracts that include
DFARS clause 252.242-7005 if significant deficiencies exist with a contractor’s business
system (such as the MMAS). Although the contracting officer can reduce the withholding




                                                                                           DODIG-2013-082 │ 1
Finding A



                 if the contractor provides an adequate corrective action plan, withholdings must remain
                 in place until the contractor eliminates the deficiency.


                 Defense Contract Audit Agency
                 DCAA performs contract audits and provides accounting and financial advisory services
                 to DoD Components responsible for procurement and contract administration. The
                 Agency performs several types of audits, including audits of a DoD contractor’s MMAS.
                 The objective of DCAA’s MMAS audit is to determine if the DoD contractor’s related
                 internal controls are effective, and whether the DoD contractor’s MMAS complies with
                 the 10 standards contained in the DFARS 252.242-7004 clause.


                 Naval Sea Systems Command
                 Naval Sea Systems Command (NAVSEA) is the largest of the Navy’s five systems commands
                 and the Navy’s central activity for designing, engineering, integrating, building, and
                 procuring ships and shipboard weapons and combat systems. NAVSEA awards nearly
                 $24 billion in contracts annually for new construction of ships and submarines, ship
                 repair, major weapon systems and services. The mission of NAVSEA is to develop, deliver,
                 and maintain ships and systems for the United States Navy.


                 Supervisor of Shipbuilding, Conversion and Repair
                 NAVSEA executes its shipbuilding contracts at four Supervisor of Shipbuilding, Conversion
                 and Repair (SUPSHIP) facilities located throughout the United States. SUPSHIP operates
                 under the direction of NAVSEA and its responsibilities include:

                          •	 performing contract administration services, such as enforcing contract
                             requirements;

                          •	 working with contractors and Government activities to facilitate greater
                             quality and economy in the products and services being procured; and

                          •	 managing the complexities and unique demands of ship construction and
                             repair projects.

                 Part of SUPSHIP’s contract administration responsibilities includes taking action on DCAA
                 audit reports. The complaint addressed in this report covers the actions that one of four
                 SUPSHIP facilities took in response to DCAA audit reports issued on a DoD contractor’s
                 MMAS.




2 │ DODIG-2013-082
                                                                                                 Finding A




Finding A
The Contracting Officer Failed to Take Action on
Reported MMAS Deficiencies
We substantiated the allegation that a SUPSHIP contracting officer failed to take action
on MMAS deficiencies reported in multiple audit reports since 1996. The failure to take
action likely resulted in the Government paying millions of dollars in excess material
inventory carrying costs.



Allegation
The complainant alleged that the contracting officer at a SUPSHIP facility failed to protect
the Government’s interests by not taking action to address MMAS deficiencies reported
in multiple DCAA audit reports.


DCAA Audit Reports
On August 25, 2006, DCAA reported to the SUPSHIP contracting officer that the
contractor’s MMAS did not comply with 5 of the 10 MMAS standards. The most significant
noncompliance raised in the report was the contractor’s failure to achieve a 95-percent
master production schedule accuracy goal addressed in MMAS Standard 2. According
to the report, the Standard 2 noncompliance resulted from the contractor prematurely
purchasing and billing the Government for millions of dollars in material costs that were
not needed in production for several months. The report states that the Government paid
incurred excess material carrying costs worth an estimated $59 million per year based on
existing material inventory levels. On August 26, 2008, after completing a follow-up audit
of MMAS Standard 2, DCAA reported to the contracting officer that the DoD contractor was
still not in compliance with MMAS Standard 2. The 2008 report noted an excess material
carrying cost estimate of $27.7 million per year based on inventory levels which existed
at that time. In both reports, DCAA recommended that the contracting officer withhold
a portion of the DoD contractor’s progress payments to help protect the Government’s
interests until the contractor corrected the MMAS deficiencies.

DCAA had also issued two previous audit reports addressing the premature billing
of material costs in September 2001 and June 1996. According to the complaint, the
responsible SUPSHIP contracting officer took no action on any of the DCAA reports.
Between 1996 and 2011, there were three different contracting officers assigned to this
SUPSHIP location.




                                                                                           DODIG-2013-082 │ 3
Finding A



                 Contracting Officer Took No Action for More than 14 Years on
                 Reported Deficiencies
                 Our review disclosed that the SUPSHIP contracting officer had not taken any action on the
                 MMAS deficiencies reported by DCAA since 1996. The contracting officer did not take any
                 of the actions required by DFARS 242.7203(c) for completing the disposition of the DCAA
                 audit findings, determining the acceptability of the MMAS, requiring corrective action,
                 or taking interim action to protect the Government’s interests. The contracting officer’s
                 failure to take action was also not in compliance with DoD Instruction 7640.02, “Policy
                 for Follow-up on Contract Audit Reports,” requiring that contracting officials complete the
                 disposition of audit report findings within 12 months.

                 The failure of the contracting officer to act on these reports is unacceptable. The
                 Government has likely paid millions of dollars in additional inventory carrying costs,
                 which the Government cannot recover. DCAA clearly conveyed the significance of the
                 MMAS deficiencies in its audit reports. For example, DCAA estimated in its 2008 report
                 that the Government had incurred approximately $27.7 million in excess material
                 inventory carrying costs. Yet, the contracting officer took no action.

                 During our interview with the contracting officer, he acknowledged that he had not taken
                 meaningful action to resolve the reported MMAS deficiencies. The contracting officer said
                 he thought he had forwarded the MMAS report to the contractor for comment, but does
                 not recall whether he received the contractor’s comments. The contracting officer stated
                 that his office lacked the resources necessary to address a backlog of DCAA audit reports
                 awaiting action.

                 A lack of resources is not an excuse for failing to take action over several years on an
                 audit finding potentially worth millions of dollars in savings to the Government. There
                 is no reasonable excuse for failing to act on the reports over a 14-year period. SUPSHIP
                 management also bears responsibility for not monitoring the contracting officer’s
                 actions and providing the resources necessary to take action on the reports in a timely
                 manner. NAVSEA should consider appropriate administrative action, including personal
                 accountability, for the failure to address the reported findings in compliance with DFARS
                 242.7203 and DoD Instruction 7640.02. Accountability encourages compliance and
                 reinforces to management and employees that such conduct will not be tolerated.




4 │ DODIG-2013-082
                                                                                                                                 Finding A



Notice of Concern and Management Actions
On September 20, 2010, we issued a Notice of Concern* to the Commander, Naval Sea
Systems Command, to recommend some immediate actions necessary for resolving the
DCAA-reported MMAS deficiencies and for improving related controls (see Appendix
B). In a September 30, 2010 response, NAVSEA concurred with our recommendations
and provided a comprehensive action plan (see Appendix C for the complete NAVSEA
response). NAVSEA took the following corrective actions:

            •	 NAVSEA and SUPSHIP leadership jointly reviewed the DCAA-reported MMAS
                deficiencies.

            •	 On September 23, 2010, NAVSEA and SUPSHIP leadership met with DCAA
                management to discuss the MMAS deficiencies and develop a plan for
                resolving them.

            •	 On September 29, 2010, NAVSEA issued a policy requiring all NAVSEA
                activities to establish an action plan for resolving all delinquent audit reports.
                NAVSEA also established a monitoring process and adjusted staffing resources
                to ensure timely completion of actions.

            •	 In a January 18, 2011, letter, the contracting officer notified the DoD contractor
                that the MMAS was not in compliance with several MMAS standards and
                required the contractor to submit a corrective action plan. On March 18,
                2011, the contractor submitted the required corrective action plan.

These actions were responsive to the recommendations contained in the Notice of
Concern.


Recommendations, Management Comments, and Our
Response
Added Recommendations
As a result of management comments, we added Recommendation 2.d to request a re-
evaluation of the determination that the costs of complying with Standard 2 outweigh its
benefits. In addition, we added Recommendation 2.e to request that SUPSHIP reassess
the appropriateness of its March 15, 2013, agreement with the contractor on master
production schedule accuracy.


*	
 We normally issue a Notice of Concern to alert DoD management of significant findings that we believe require immediate
   attention. DoD management officials can then take proactive steps to mitigate the effects of the findings.




                                                                                                                           DODIG-2013-082 │ 5
Finding A



                       1.	     The Commander, Naval Sea Systems Command, should consider
                               appropriate administrative action, including personal accountability,
                               for the failure of the Supervisor of Shipbuilding, Conversion and
                               Repair facility to take action on significant material management and
                               accounting system deficiencies reported by Defense Contract Audit
                               Agency over several years.

                 Department of the Navy Comments
                 The Deputy Assistant Secretary of the Navy (Acquisition and Procurement) agreed and
                 indicated that NAVSEA:

                             •	 counseled the SUPSHIP’s Chief and the Deputy Chief of the Contracting Office
                               on the importance of resolving DCAA audit recommendations in a timely
                               manner;

                             •	 counseled the primary responsible party for system audits to ensure timely
                               and accurate responses;

                             •	 appointed a new Chief of Contracting and emphasized his role and
                               responsibility for resolving outstanding system audits;

                             •	 appointed a Corporate Administrative Contracting Officer to assist with
                               administering business system requirements and DCAA audit findings; and

                             •	 initiated a monitoring system that tracks the status of all audits at each
                               SUPSHIP office.

                 Our Response
                 We verified that NAVSEA took these actions, which satisfy the intent of the recommendation.
                 No additional response to this recommendation is required.

                       2.	     The Commanding Officer, Supervisor of Shipbuilding, Conversion and
                               Repair, should:

                             a.	 Promptly evaluate the contractor’s corrective action plan for correcting
                               the material management and accounting system deficiencies in
                               accordance with Defense Federal Acquisition Regulation Supplement
                               242.7203(c)(2)(ii)(C).




6 │ DODIG-2013-082
                                                                                              Finding A



Department of the Navy Comments and Actions
The Deputy Assistant Secretary of the Navy (Acquisition and Procurement) agreed and
advised that SUPSHIP committed to evaluate the corrective action plan for the material
management and accounting system deficiencies and work with DCAA to ensure that
corrective action is taken.

During the evaluation, we learned that SUPSHIP asked DCAA to update its estimated
impact for the Standard 2 noncompliance (involving inadequately time-phased materials
and master production schedule inaccuracies) for more recent material purchase data.
On July 14, 2011, DCAA provided SUPSHIP with an updated estimate of $25.1 million
based on 2010 material purchases; $2.6 million lower than the 2008 DCAA reported
estimate of $27.7 million.

On August 31, 2011, SUPSHIP issued its determination on the results of its evaluation to
the contractor. SUPSHIP found that significant MMAS deficiencies remained and posed an
undue risk to the Government. The contracting officer decided to withhold $5.9 million
for certain deficiencies associated with four MMAS standards (excluding the Standard
2 noncompliance for inadequately time-phased materials).        The contracting officer
indicated that the withholdings would remain in place until the MMAS deficiencies were
corrected. As of February 22, 2013, the $5.9 million withholding remained in place.

Regarding the reported Standard 2 noncompliance, the contracting officer chose not
to implement a withholding or require the DoD contractor to take corrective action. In
contrast to the latest DCAA estimated impact of $25.1 million, the contracting officer
calculated his own estimated impact of $3.5 million. However, the contracting officer
determined that the costs associated with requiring the DoD contractor to comply with
Standard 2 were excessive in relation to the impact on the Government.

On March 15, 2013, the SUPSHIP Commander entered into an agreement with the
contractor concerning how the contractor must calculate master production schedule
accuracy. The master production schedule accuracy rate serves as the primary measure
for determining if a contractor adequately time-phases material costs in accordance
Standard 2. A key provision of the agreement indicates that Standard 2 compliance will
be achieved if the contractor receives 95 percent of certain materials within 180 days of
the “required-in-yard” date reflected in the master production schedule.




                                                                                        DODIG-2013-082 │ 7
Finding A



                 Our Response
                 The Department of the Navy comments and actions are responsive to the intent of the
                 recommendation. We recognize the significant efforts SUPSHIP made in eventually
                 taking action on MMAS deficiencies reported over a 14-year period and implementing a
                 payment withholding for some of the significant deficiencies.

                 However, the August 31, 2011, written determination fails to adequately justify SUPSHIP’s
                 methodology for calculating the $3.5 estimated impact, which is $21.6 million lower than
                 the $25.1 million DCAA estimate. Specifically, SUPSHIP did not adequately explain why it
                 excluded certain material costs from the calculation and made adjustments to the DCAA
                 annual carrying cost rate.


                 Material Exclusions
                 Appendix B shows a comparison between the DCAA estimated impact of $25.1 million
                 and the SUPSHIP estimate of $3.5 million. SUPSHIP excluded “planning material” of $350
                 million, which accounted for 41 percent of the $837 million in 2010 material purchases.
                 The August 31, 2011, SUPSHIP determination does not provide a sufficient explanation
                 for excluding this material. The determination simply states that planning material was
                 excluded because “The Navy awards the contractor planning contracts to buy material
                 early.” The contracting officer subsequently clarified to us that he excluded planning
                 material because the Government instructs the DoD contractor when it must purchase and
                 receive the material. Therefore, the contracting officer believes the contractor does not
                 have the ability to better time-phase planning material. However, the contracting officer
                 could not provide us with evidence showing that the Government instructs the contractor
                 when it must purchase and receive planning material. Although the Government advises
                 the contractor when it can proceed with its general planning efforts on new contracts, we
                 found no evidence of the Government instructing the contractor when to purchase and
                 receive planning material.

                 We take exception to SUPSHIP’s exclusion of $33 million in “company stores material,”
                 which accounted for an additional 4 percent of 2010 material purchases. The August 31,
                 2011, determination included the following explanation for excluding company stores
                 material.

                             MMAS Standard No.2, Master Production Schedule (MPS) accuracy
                             is focused on ensuring that material purchases of direct project
                             material (billed to contracts upon receipt) are based on valid




8 │ DODIG-2013-082
                                                                                                 Finding A



             time-phased requirements. Company stores…material costs are
             not direct project material. (emphasis added)

However, Standard 2 establishes the requirement for appropriately time-phasing all
materials that are ultimately charged or allocated to a contract, not just “direct project”
material. The Commander, SUPSHIP, also told us that because company stores material is
only charged to the Government when it is needed in production, the Government is not
impacted by the failure to appropriately time-phase this material. We disagree because
the Government is still paying excess inventory costs through the reimbursement of the
contractor’s overhead costs when the contractor purchases and receives company stores
material well in advance of its need.


Annual Carrying Cost Rate Adjustments
Although DCAA used an annual carrying cost rate of 10.5 percent to calculate the estimated
impact, SUPSHIP used a significantly lower rate of 4.2 percent. The rate difference of
6.3 percent primarily resulted from SUPSHIP making two adjustments. First, SUPSHIP
removed all costs associated with receiving, inspecting, inventorying, and issuing
material to production (also referred to as Department 53 costs). SUPSHIP made the
adjustment on the basis that these functions would occur regardless of whether material
is received early. However, the costs associated with these functions will often increase
if the contractor routinely receives material far in advance of its need. For example, the
Government will incur additional costs associated with material that must be re-inspected
or re-inventoried if the contractor receives the material too early.

Second, SUPSHIP excluded 90 percent of the costs that DCAA estimated for inventory
shrinkage and obsolete material. The DCAA estimate is based on the costs charged to
the contractor’s “Code 551 Movements” account. SUPSHIP believes this account includes
other costs in addition to inventory shrinkage and obsolete material. For example, the
contracting officer believes some of the costs in this account could be for “bad or wrong
material received from the supplier,” which did not result from material received too early.
However, the contracting officer’s decision to exclude 90 percent of this account appears
arbitrary, as he could not provide us with rationale to support the basis or amount of the
exclusion.

Therefore, SUPSHIP should re-evaluate its determination that the costs of complying with
Standard 2 outweigh the benefits. As part of the re-evaluation, SUPSHIP must document
adequate rationale when it disagrees with auditor recommendations, as DoD Instruction
7640.02 requires. See added Recommendation 2.d.




                                                                                           DODIG-2013-082 │ 9
Finding A



                 Agreement on Master Production Schedule Accuracy Rate
                 The SUPSHIP Commander also could not provide us with written rationale to support
                 the agreement he entered into with the contractor on the master production schedule
                 accuracy rate. We question the appropriateness of the agreement because it allows
                 the contractor to exclude a significant portion of material purchases from the master
                 production schedule rate calculation, including planning material and company stores
                 material.

                 Moreover, the agreement allows the contractor to calculate the rate using a “required-in-
                 yard” measurement date, which DCAA has stated would be inconsistent with the intent
                 of Standard 2. In several audit reports, DCAA pointed out that the measurement does
                 not test whether the master production schedule is accurate or if the contractor keeps
                 it up-to-date. DCAA advised that the measure only serves to determine if material is
                 received according to the master production schedule, irrespective of whether or not the
                 schedule is accurate. DCAA recommended using the “issued to production” date, rather
                 than the required-in-yard date, in order to meaningfully measure the degree to which the
                 contractor time-phases material costs.

                 DoD Instruction 7640.02 requires that contracting officers document adequate rationale
                 when they disagree with auditor recommendations. Prior to executing the agreement, the
                 SUPSHIP Commander acknowledged that he did not document any rationale in support of
                 the agreement. We also found no evidence that the Commander consulted with DCAA on
                 the agreement prior to signing it on March 15, 2013. DCAA first learned of the agreement
                 after receiving a copy of it.

                 The Commander told us he allowed the use of the required-in-yard date because of the
                 nature of the contractor’s business, which involves numerous changes to the production
                 schedule.    However, the fact that the contractor’s production schedule undergoes
                 numerous changes only further reinforces the need to maintain a current and accurate
                 schedule and periodically test the accuracy of it. The Commander’s explanation does
                 not adequately justify the use of a measure that does not meaningfully test the degree to
                 which the contractor appropriately time-phases material costs.

                 SUPSHIP should reassess the appropriateness of its agreement with the contractor on the
                 master production schedule accuracy calculation. As part of the reassessment, SUPSHIP
                 must document adequate rationale when it disagrees with auditor recommendations, as
                 DoD Instruction 7640.02 requires. See added Recommendation 2.e.




10 │ DODIG-2013-082
                                                                                               Finding A



           b.	 Consult closely with the Defense Contract Audit Agency in evaluating the
             corrective action plan.

Department of the Navy Comments
According to the Supervisor of Shipbuilding, Conversion and Repair, SUPSHIP contracting
personnel held several meetings with DCAA in 2011 during its evaluation of the
contractor’s corrective action plan.


Our Response
We confirmed that SUPSHIP consulted with DCAA and held meetings with DCAA from
March through August 2011. However, SUPSHIP did not closely coordinate with DCAA
when it entered into the March 15, 2013, agreement with the contractor on the master
production schedule calculation. We request that SUPSHIP coordinate closely with DCAA
when it reassesses the impact of the Standard 2 deficiency and the agreement on the
master production schedule calculation, as discussed in Recommendations 2.d and 2.e.

           c.	 Provide a copy of the written determination on the contractor’s corrective
             action plan and the system’s overall acceptability to the DoD Inspector
             General, Assistant Inspector General for Audit Policy and Oversight.

Department of the Navy Comments
SUPSHIP agreed to provide a copy of the written determination to the DoD Assistant
Inspector General for Audit Policy and Oversight.


Our Response
SUPSHIP provided the August 31, 2011, written determination to the DoD Assistant
Inspector General for Audit Policy and Oversight. However, we request that SUPSHIP
provide a copy of the re-evaluation and reassessment requested in Recommendations 2.d
and 2.e.

           d.	 Re-evaluate the determination that the costs of complying with Standard
             2 outweigh the benefits, and document adequate rationale for any
             disagreements with the auditor in accordance with DoD Instruction
             7640.02.

           e.	 In consultation with Defense Contract Audit Agency, reassess the
             appropriateness of the March 15, 2013, agreement with the contractor
             on the master production schedule accuracy calculation.




                                                                                        DODIG-2013-082 │ 11
Finding B




                  Finding B
                  Alleged DCAA Management Failure to Protect the
                  Government’s Interests
                  We did not substantiate the allegation that DCAA field office management failed to
                  adequately protect the Government’s interests in pursuing the contractor’s MMAS
                  deficiencies.



                  Allegation
                  The complainant alleged that DCAA’s field office management involved in reporting the
                  MMAS deficiencies failed to adequately protect the Government’s interests because:

                           •	 the field office manager did not follow up with the contracting officer on his
                              efforts to resolve the MMAS deficiencies with the contractor;

                           •	 the field office manager refused to incorporate the reported MMAS findings in
                              progress payments and other audits in accordance with Agency policy;

                           •	 DCAA management unnecessarily took over 6 months (29 weeks) to issue the
                              2008 MMAS audit report after the auditor prepared the initial report draft;
                              and

                           •	 the field office manager lacked independence from the SUPSHIP contracting
                              officer.


                  DCAA Organization
                  DCAA maintains a headquarters office and five regions. Each region has several field
                  offices, and each field office is comprised of multiple audit teams. The field office manager
                  (referred to as the Branch Manager or Resident Auditor) and the supervisors of each audit
                  team make up the management “team” at each DCAA field office. The field office manager
                  reports to a regional audit manager.


                  Field Office Manager Did Follow-up with the Contracting
                  Officer
                  Our review disclosed that the DCAA field office manager took several actions to follow-up
                  with the SUPSHIP contracting officer on his efforts to address the DCAA-reported MMAS




12 │ DODIG-2013-082
                                                                                                  Finding B



deficiencies. For example, our interviews and review of applicable documents disclosed
that the field office manager:

         •	 met regularly with the contracting officer, and at least quarterly with senior
            Navy officials, to discuss significant audit matters such as the reported MMAS
            deficiencies;

         •	 briefed the DCAA Director in April of 2009 on the contracting officer’s lack of
            action; and

         •	 issued a memorandum to the cognizant DCAA regional office in June 2009, citing
            an unsatisfactory condition with respect to the contracting officer’s failure to
            take timely action. The Regional office forwarded the reported unsatisfactory
            condition to DCAA Headquarters for consideration in November 2009.

These actions demonstrate that the field office manager took appropriate follow up steps
under the circumstances. Ultimately, the contracting officer is responsible for his own
failure to act. Therefore, we did not substantiate this portion of the allegation.


Field Office Manager Noted the Impact of MMAS Deficiencies
DCAA procedures require the auditor to recommend reductions on contractor progress
payment requests for unresolved MMAS deficiencies until they are corrected. In addition,
DCAA procedures for preparing Earned Value Management System reports require the
auditor to comment on unresolved MMAS deficiencies which have an impact on the
Earned Value Management System.

Our review disclosed that the most recent DCAA progress payment report appropriately
highlighted the MMAS deficiencies and recommended a 10-percent withhold. Also, our
review of Earned Value Management System reports issued since 2005 disclosed that
DCAA included comments on the MMAS deficiencies and highlighted the impact of them on
the Earned Value Management System. Therefore, the evidence shows that the field office
manager complied with Agency procedure by noting the impact of the MMAS deficiencies
in reports involving progress payments and Earned Value Management Systems.


DCAA Issuance of 2008 MMAS Audit Report Was Timely
We reviewed DCAA’s 2008 MMAS audit file to determine whether the actions taken to
issue the report were untimely under the circumstances. The auditor submitted the
initial draft report on February 8, 2008, and DCAA management issued the final report on




                                                                                           DODIG-2013-082 │ 13
Finding B



                 August 26, 2008 (approximately 29 weeks later). The table shows a list of actions taken
                 after the auditor submitted her initial draft report:

                 Table. Duration of Actions Taken After Submittal of Initial Draft Report

                                                   Description of Action                             Approx. Duration
                      Auditor performance of additional fieldwork as recommended by the DCAA             8 weeks
                      MMAS Technical Specialist
                      Contractor issuance of comments on the DCAA draft report                           7 weeks
                      Auditor preparation of final report, including a rebuttal to the contractor        5 weeks
                      comments
                      Reviews of the draft and final reports by a peer, MMAS technical specialist,       9 weeks
                      supervisor, field office manager, and regional audit manager
                       Total Duration                                                                   29 weeks

                 Considering the complexity and significance of the reported MMAS issues, we did not
                 determine that the actions were excessively untimely, or that DCAA management unduly
                 delayed report issuance in this case.


                 Field Office Manager Did Not Lack Independence
                 GAGAS, Paragraph 3.02, requires individual auditors and audit organizations to be free
                 from personal, external, and organizational impairments to independence, and must
                 avoid the appearance of such impairments.

                 We reviewed evidence provided by the complainant in support of the claim that the field
                 office manager lacked independence from the contracting officer. The evidence consists
                 primarily of a March 30, 2007 e-mail exchange between the field office manager and
                 members of his staff involved in the MMAS audit. In the e-mail exchange, the field office
                 manager stated he was not in favor of recommending a reduction to the contractor’s
                 progress payments for the reported MMAS deficiencies until the contracting officer agreed
                 with the underlying deficiencies. The field office manager’s comments were inconsistent
                 with Agency policy, which requires the auditor to recommend appropriate reductions to
                 progress payments for MMAS deficiencies, even if the contracting officer has not yet made
                 a determination.

                 While inconsistent with Agency policy, the e-mail does not demonstrate that the DCAA
                 field office manager lacked independence from the SUPSHIP contracting officer in
                 carrying out his audit responsibilities. On August 16, 2007, over 4 months following
                 the e-mail exchange, the field audit manager did recommend appropriate reductions
                 to a progress payment request in accordance with Agency policy. In addition, we noted




14 │ DODIG-2013-082
                                                                                               Finding B



several other actions the field office manager took, which appear to show that he acted
independently from the SUPSHIP contracting officer. For example, the field office manager
formally reported to his management chain of command that the failure of the SUPSHIP
contracting officer to act on the reported MMAS deficiencies was an unsatisfactory
condition. Therefore, we did not find sufficient evidence to substantiate that the field
office manager lacked independence from the SUPSHIP contracting officer.




                                                                                        DODIG-2013-082 │ 15
Appendices




                 Appendix A
                 Scope and Methodology
                 We conducted this review in accordance with the Quality Standards for Inspection and
                 Evaluation. To determine the validity of the complaint addressed in this report, we:

                             •	 interviewed appropriate officials at the SUPSHIP office and the cognizant
                               DCAA field office;

                             •	 obtained and reviewed documents pertinent to the complaint, including those
                               from the SUPSHIP and DCAA offices; and

                             •	 reviewed and applied applicable laws, regulations and DoD Instructions.

                 We interviewed SUPSHIP personnel and reviewed SUPSHIP files to determine what
                 actions had been taken on the 2006 and 2008 DCAA reports. We also interviewed DCAA
                 personnel and reviewed applicable DCAA records to gain an understanding of the DCAA-
                 reported MMAS deficiencies.

                 We conducted this review from August 2010 through March 2013. We had to suspend
                 the review several times during this timeframe to work on other high-priority projects.


                 Use of Computer-Processed Data
                 We did not rely on computer-processed data to perform this review.


                 Prior Coverage
                 In the past 5 years, we have issued the following two reports involving actions by a
                 SUPSHIP office:

                       1.	     Report No. D-2008-6-005, “Report of Actions on Incurred Cost Audits by the
                               Supervisor of Shipbuilding, Conversion and Repair Groton, Connecticut,” May
                               5, 2008.

                       2.	     Report No. D-2010-6-003, “Actions to Establish Final Indirect Cost Rates
                               on Reportable Contract Audit Reports by the Supervisor of Shipbuilding,
                               Conversion and Repair,” September 24, 2010.




16 │ DODIG-2013-082
                                                                                                                           Appendices




Appendix B
Comparison of Estimated Impact for Standard 2
Deficiency
                         Cost Element                                         Estimated Impact                  Note
                                                                          DCAA                SUPSHIP
 CY 2010 Material Costs                                                $837,376,810         $837,376,810
   Less Excluded Material:
           Planning Material                                                        $0    ($349,691,444)
           Company Store Material                                                   $0      ($33,097,390)
           Other Material                                                           $0      ($25,272,926)
 Subtotal: CY 2010 Material Costs less Exclusions                      $837,376,810         $429,315,050             1
   Times: Master Production Schedule (MPS) Error Rate                            62%                   57%           2
 Subtotal: Estimated Amount of Material Billed Early                   $519,173,622         $244,709,579
   Times: Annual Carrying Cost Rate                                            10.5%                  4.2%           3
 Subtotal: Annual Carrying Cost on Material Billed Early                $54,342,211           $10,277,802
   Times: Percent of Year Purchased Early                                        46%                 34.4%           4
 Estimated Annual Impact of Material Purchased Early                    $25,160,444            $3,535,564

Notes:
 1.	 DCAA included all 2010 material costs of $837,376,810 in its cost impact calculation for the Standard 2 deficiency
     involving the failure to maintain an accurate master production schedule and properly time-phase material
     purchases. However, SUPSHIP excluded planning material, company store material, and other materials (such as
     nuclear material). As discussed in the Our Response section of Recommendation 2a, SUPSHIP did not adequately
     explain why it excluded planning and company store material from the calculation.
 2.	 DCAA calculated a 62-percent MPS error rate based on its determination that materials were received too early 62
     percent of the time. SUPSHIP used a reduced error rate of 57 percent (a 5-percent reduction) because Standard
     2 establishes a 95-percent MPS accuracy rate as a goal rather than a 100-percent rate. We take no exception to
     the 57 percent rate.
 3.	 The 10.5 percent material carrying cost rate used by DCAA represents the cost of receipt, inspection, storage,
     issuance, shrinkage, obsolescence, and opportunity cost as a percent of material purchases. SUPSHIP adjusted
     the rate to 4.2 percent by removing the cost of receipt, inspection, storage, and issuance. SUPSHIP believes
     these activities would occur even if the contractor does not time-phase material properly. In addition, SUPSHIP
     only included 10 percent of the DCAA estimated costs for shrinkage and obsolescence because SUPSHIP believes
     the DCAA estimate overstates the actual cost of these items. As detailed in the Our Response section of
     Recommendation 2.a., we take exception to the SUPSHIP adjusted rate of 4.2 percent.
 4.	 The “Percent of Year Purchased Early,” reflects the weighted average number of days material was received in
     advance of its “need date,” divided by the number of days in the calendar year. For material purchases costing less
     than $500,000, DCAA calculated a need date by adding 90 days to the date the material was issued to production.
     For material purchases costing $500,000 or more, DCAA added 180 days. Based on this methodology, DCAA
     determined that the contractor received material 169 days on average beyond the need date. Therefore, DCAA
     calculated a “Percent of Year Purchased Early Rate” of 46 percent (169 days ÷ 365 days), and SUPSHIP used a 34.4
     percent rate, which is based on the allowance of 180 days for all material, regardless of material purchase cost.
     We take no exception to SUPSHIP’s use of the 34.4 percent rate.




                                                                                                                   DODIG-2013-082 │ 17
Appendices




                 Appendix C
                 Chronology of Events

                              Date                                         Description
                                           DCAA reported that the contractor did not comply with 6 of the 10 MMAS
                      June 24, 1996        standards, including MMAS Standard 2.
                                           DCAA reported that the contractor’s MMAS did not comply with 6 of the
                      September 28, 2001   10 standards, including MMAS Standard 2.
                                           DCAA reported on the contractor’s noncompliance with 5 of the 10 MMAS
                      August 25, 2006      standards, including MMAS Standard 2.
                                           DCAA reported on the contractor’s noncompliance with 5 of the 10 MMAS
                      August 26, 2008      standards, including Standard 2.
                                           DoD IG issued a notice of concern to NAVSEA regarding the timeliness in
                      September 20, 2010   addressing DCAA reported MMAS deficiencies.
                      September 30, 2010   NAVSEA responded in writing to DoD IG Notice of Concern.
                                           SUPSHIP issued a resolution memorandum to the contractor, concurring
                      January 18, 2011     with the DCAA reported deficiencies and requesting the contractor to
                                           respond in 60 days.
                      March 18, 2011       The contractor issued its response to SUPSHIP’s resolution memorandum.
                                           SUPSHIP officials met with DCAA personnel to discuss the contractor’s
                      March 25, 2011       response.
                                           The contractor issued additional comments to SUPSHIP associated with
                      May 18, 2011         the MMAS Standard 2 deficiencies.
                                           DoD IG issued a draft of this report, finding that SUPSHIP failed to take
                      July 6, 2011         action on the MMAS audit findings.
                                           DCAA provided SUPSHIP with an updated estimate of $25.1 million for the
                      July 14, 2011        Standard 2 deficiency.
                                           The contractor gave SUPSHIP a supplemental response on the DCAA
                      August 12, 2011      reported MMAS standard 2 noncompliance.
                                           SUPSHIP issued its final determination on the DCAA reported MMAS
                      August 31, 2011      deficiencies and implemented a $5.9 million withholding pending
                                           correction of the deficiencies.
                                           DCAA reported that the contractor did not comply with 7 of the 10 MMAS
                      September 30, 2011   standards, including MMAS standard 2.
                                           The contractor responded to SUPSHIP on the deficiencies reported in the
                      January 9, 2012      September 30, 2011, DCAA report.
                                           The SUPSHIP Commander entered into an agreement with the contractor
                      March 15, 2013       for calculating master production schedule accuracy.




18 │ DODIG-2013-082
                                                   Appendices




 Appendix D
Appendix D. DoD Inspector General Notice of
 DoD Inspector General Notice of Concern
Concern




                    17                        DODIG-2013-082 │ 19
Appendices




20 │ DODIG-2013-082
     Appendices




DODIG-2013-082 │ 21
Appendices




             Appendix
            Appendix   E.E Naval Sea Systems Command
             Naval Sea Systems
            Comments     on theCommand
                                 Notice Comments on the Notice
                                        of Concern
                 of Concern




22 │ DODIG-2013-082
                                     20
     Appendices




DODIG-2013-082 │ 23
Appendices




              Appendix F
            Navy Comments
                 Navy Comments




24 │ DODIG-2013-082
                                 22
     Appendices




DODIG-2013-082 │ 25
Appendices




26 │ DODIG-2013-082
                                                               Acronyms and Abbreviations



Acronyms and Abbreviations
     DCAA Defense Contract Audit Agency
     DFARS Defense Federal Acquisition Regulation Supplement
         IG Inspector General
    MMAS Material Management and Accounting System
   NAVSEA Naval Sea Systems Command
   SUPSHIP Supervisor of Shipbuilding, Conversion and Repair




                                                                          DODIG-2013-082 │ 27
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
